HHS/OIG, Audit - "Review
of Nursing Education Payments to St. Joseph's Hospital Health Center for the
Period January 1, 2004, Through December 31, 2004," (A-02-06-01025)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Nursing Education Payments to St. Joseph's Hospital Health Center for the
Period January 1, 2004, Through December 31, 2004," (A-02-06-01025)
June 17, 2008
Complete
Text of Report is available in PDF format (169 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For calendar year 2004, St.
Josephs Hospital Health Centers nursing education program met
both Medicare eligibility and reimbursement requirements.
As a result, the report contains no recommendations.